WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-8420

 

 

Jay Christensen

Ce |

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© T am filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,

Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature: i MM fbr -
Date: 7/22/21

(Type or print) Name Kale D, Gans

© mr. O Ms. O mrs. O Miss
Firm Office of Idaho Attorney General
Address P.O. Box 83720 —— : 7

 

City & State Boise, ID Zip 83720-0010

Phone 208-334-2400 Email kale.gans@ag.idaho.gov

  

|
bin

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Jimmie O'Neal (PRO SE), #123272
Iscc Unit E-2

PO Box 70010
Boise, ID 83707
